Report No. D-2007-038     December 22, 2006




 U.S. Army Corps of Engineers' "Operation
     Blue Roof" Project in Response to
            Hurricane Katrina
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Department of
  Defense Inspector General at http://www.dodig.mil/audit/reports or contact the
  Secondary Reports Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax
  (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Office of the Deputy
  Inspector General for Auditing at (703) 604-9142 (DSN 664-9142) or fax (703)
  604-8932. Ideas and requests can also be mailed to:

                       ODIG-AUD (ATTN: Audit Suggestions)
                       Department of Defense Inspector General
                         400 Army Navy Drive (Room 801)
                             Arlington, VA 22202-4704




Acronyms

ACI                   Advanced Contracting Initiatives
DCAA                  Defense Contract Audit Agency
FAR                   Federal Acquisition Regulation
FEMA                  Federal Emergency Management Agency
GAO                   Government Accountability Office
IDIQ                  Indefinite-Delivery, Indefinite-Quantity
IG                    Inspector General
NRP                   National Response Plan
RFP                   Request for Proposal
SSET                  Source Selection Evaluation Team
                            INSPECTOR GENERAL 

                           DEPARTMENT OF DEFENSE 

                              400 ARMY NAVY DRIVE 

                         ARLINGTON, VIRGINIA 22202-4704 





                                                                      December 22,2006
MEMORANDUM FOR AUDITOR GENERAL, DEPARTMENT OF THE ARMY
                COMMANDER, UNITED STATES ARMY CORPS
                 OF ENGINEERS
SUBJECT: Report on the U.S. Army Corps of Engineers' "Operation Blue Roof' Project
         in Response to Hurricane Katrina (Report No. D-2007-038)

        We are providing this report for information and use. No written response to this
report was required, and none was rdceived. Therefore, we are publishing this report in
final form.
       We appreciate the courtesies extended to the staff. Questions should be directed
to Ms. Deborah L. Culp at (703) 604-9335 (DSN 664-9335) or Mr. John G. LaBelle at
(703) 604-9336 (DSN 664-9336). See Appendix D for the report distribution. The team
members are listed inside the back cover.
                             By direction of the Deputy Inspector General for Auditing:
                                                          A




                                           Richard B. Jolliffe 

                                     Assistant Inspector General 

                                 Acquisition and Contract Management 

               Department of Defense Office of Inspector General
Report No. D-2007-038                                                  December 22, 2006
 (Project No. D2006-D000CG-0081.000)

           U.S. Army Corps of Engineers’ “Operation Blue Roof”
                 Project in Response to Hurricane Katrina

                                 Executive Summary

Who Should Read This Report and Why? U.S. Army Corps of Engineers contracting
officials, emergency management personnel, technical evaluation teams, and others
involved in emergency management should read this report. This report discusses the
award process and the administration of the temporary roofing contracts used in
emergency situations.

Background. Congressmen Bennie G. Thompson and Bill Pascrell Jr. requested the
U.S. Army Corps of Engineers Inspector General to review the contracts awarded for
temporary roofing repairs (Operation Blue Roof) following Hurricane Katrina. Due to a
lack of resources, the U.S. Army Corps of Engineers requested that the DoD Office of
Inspector General perform the review. Congressmen Thompson and Pascrell requested a
review of specific issues including: the U.S. Army Corps of Engineers’ Request for
Proposal for temporary roof repairs in Louisiana and Mississippi; the responses detailing
the winning bid submissions from the Shaw Group, LJC Construction, Simon Roofing,
and their subcontractors; documentation concerning complaints or negative performance
evaluations of the prime contractors; and efforts to use small, minority, or locally owned
firms as prime contractors.

This report will be followed by a second report that addresses other issues identified in
the administration of temporary roofing repairs contracts that were not part of the original
request. These reports are part of a series of reports that the DoD Office of Inspector
General will issue discussing the use of DoD resources in response to Hurricane Katrina
recovery efforts.

The Operation Blue Roof program provides a free temporary roof for residential
structures, schools, daycares, and all publicly owned facilities. These temporary roofs
provide short-term relief until the owner can make permanent repairs. The U.S. Army
Corps of Engineers manages the Operation Blue Roof program for the Federal
Emergency Management Agency.

Results. We performed this review to determine whether the U.S. Army Corps of
Engineers properly awarded and administered contracts for temporary roofing repairs in
response to Hurricane Katrina. We determined that, overall, the procurements were
properly solicited and awarded. The U.S. Army Corps of Engineers properly reviewed
responsive proposals and conducted the source selection according to the methodology
stated in the solicitation. As of August 2006, the U.S. Army Corps of Engineers had not
completed performance evaluations of the prime contractors; however, the U.S. Army
Corps of Engineers’ Internal Review Teams, Defense Contract Audit Agency auditors,
and homeowner inquiry and complaint forms identified contractor performance issues.
The U.S. Army Corps of Engineers did not initially award prime contracts to small,
minority, or locally owned firms because those firms were not among the top five most
technically qualified responders. However, the U.S Army Corps of Engineers did award
two contracts for temporary roofing repairs to small disadvantaged businesses in
October 2005. The U.S. Army Corps of Engineers St. Louis District office internal
controls were adequate in that we identified no material internal control weaknesses in
the award of temporary roofing repairs contracts.

Management Comments. We provided a draft of this report on November 30, 2006.
No written response to this report was required, and none was received. Therefore, we
are publishing this report in final form.




                                           ii
Table of Contents
Executive Summary                          i

Background                                 1

Objective                                  3

Review of Internal Controls                3

Finding
     Temporary Roofing Repair Contracts    4

Other Matters of Interest                 13

Appendixes
     A.   Scope and Methodology           14
     B.   Prior Coverage                  16
     C.   Congressional Request           17
     D.   Report Distribution             19
Background

          This is the first of two reports discussing the procurement of temporary roofing
          repairs for emergency situations. This report is in response to Congressman
          Bennie G. Thompson’s and Congressman Bill Pascrell Jr.’s request (Appendix C).
          The second report will address other issues identified during the review. Both
          reports are part of a series of planned audit reports the DoD Office of Inspector
          General (IG) will issue discussing the use of DoD resources in response to the
          Hurricane Katrina recovery efforts.

          2004 National Response Plan. The 2004 National Response Plan (NRP) was
          designed to provide structure for effective and efficient incident management
          among Federal, State, and local emergency management agencies. The
          2004 NRP requires all Federal departments and agencies to cooperate with the
          Department of Homeland Security in emergency and disaster situations. The
          Department of Homeland Security is the primary Federal department responsible
          for responding to emergencies and under Public Law 107-296, the “Homeland
          Security Act of 2002,” is required to coordinate with personnel from other Federal
          departments and agencies to accomplish its mission with the President’s approval.
          The Federal Emergency Management Agency (FEMA), part of the Department of
          Homeland Security, is responsible for coordinating the Federal response to
          emergencies and disasters.

          The NRP includes 15 emergency support functions, which establish
          responsibilities from immediate disaster mitigation to long-term recovery from a
          disaster. The U.S. Army Corps of Engineers (the Corps) is primarily responsible
          for one of the 15 functions, namely Emergency Support Function Number 3,
          “Public Works and Engineering,” and is a support agency for Emergency Support
          Function Number 6, “Mass Care.” Emergency Support Function Number 6
          includes temporary roofing repairs in emergency situations.1

          Mission Assignments. FEMA is authorized by the 2004 NRP to issue mission
          assignments. FEMA uses mission assignments to support Federal operations
          during major disasters or emergency declarations, when local and State
          governments are overwhelmed by the events. FEMA issued a temporary roofing
          repairs mission assignment to the Corps for $375 million to be used for the
          Hurricane Katrina recovery efforts in Louisiana and Mississippi.

          U.S. Army Corps of Engineers. The Corps delegates the FEMA mission
          assignments to Corps districts, which provide overall coordination of the mission
          assignments and stand up Recovery Field Offices. The Recovery Field Offices,
          which typically are located in, or adjacent to, the disaster area, provide functional
          support to FEMA recovery efforts by providing contracting, contract
1
    Prior to the 2004 NRP, temporary roofing was covered under Emergency Support Function Number 3.
    Although temporary roofing is covered under Emergency Support Function Number 6 in the 2004 NRP,
    FEMA assigned the mission under Emergency Support Function Number 3 again in 2005.



                                                   1
           administration, real estate, logistics, and resource management. In addition,
           satellite Resident Engineers Offices primarily focus on contract administration in
           the field and quality assurance.

           Advanced Contracting Initiative. In order to execute a quick response to
           emergencies and disasters, the Corps developed the Advanced Contracting
           Initiative (ACI). Under ACI, requirements contracts are awarded pre-disaster and
           provide Corps contracting personnel the ability to place delivery orders against
           the contracts after a disaster at the pre-negotiated rate for supplies and services.
           In 1999, the Corps developed ACI requirements contracts for ice and water, and
           requirements/indefinite-delivery, indefinite-quantity (IDIQ) contracts for power,
           debris removal, and temporary roofing.

           Operation Blue Roof. The Corps manages the Operation Blue Roof program,
           which is a priority mission, for FEMA. FEMA funds the Operation Blue Roof
           program through mission assignments. FEMA procures and delivers the blue
           plastic sheeting to staging areas where the Corps then manages distribution and
           installation.

           The Operation Blue Roof program provides a free temporary roof for residential
           structures, schools, daycares, and all publicly owned facilities. These temporary
           roofs provide short-term relief until the owner can make permanent repairs. The
           temporary roofs also prevent additional damage from occurring to the building
           and its contents and may be the difference between a resident remaining in the
           structure versus seeking temporary shelter. Following Hurricane Katrina, the
           Corps oversaw the installation of more than 62,000 temporary roofs in Louisiana
           and more than 47,000 temporary roofs in Mississippi.2




2
    The Corps also oversaw the installation of an additional 18,000 temporary roofs in Louisiana in response
    to Hurricane Rita.



                                                       2
  Source: U.S. Army Corps of Engineers

Objective

      Our overall objective was to review the award and administration of Operation
      Blue Roof contracts for the Hurricane Katrina recovery effort. Specifically, we
      reviewed Requests for Proposals (RFP), contractors’ responses to the RFPs,
      customer complaints, and efforts by the Corps to award to small, minority, or
      locally owned businesses as prime contractors. See Appendix A for a discussion
      of the scope and methodology and Appendix B for prior coverage related to the
      objectives.

Review of Internal Controls

      The Corps St. Louis District office internal controls we reviewed were adequate;
      we identified no material internal control weaknesses.




                                          3
Temporary Roofing Repair Contracts
The Corps generally followed Federal and DoD acquisition regulations
when awarding seven contracts for temporary roofing repairs for the
Hurricane Katrina recovery efforts. The total disbursed value of the
contracts was about $258 million as of December 4, 2006.

       •   On June 23, 2005, the Corps St. Louis District office issued the
           RFP for temporary roofing repairs in Louisiana and
           Mississippi. The Corps advertised the RFP on the current
           Government point of entry on the Internet at
           www.fedbizopps.gov and the Corps’ Web site. The RFP
           anticipated competitively awarding one requirements/IDIQ
           contract with a total contract capacity of $10 million and a
           period of performance through December 2005.

       •   The Corps St. Louis District office received 22 proposals, and
           the source selection board determined the top 5 technical
           proposals. On July 8, 2005, prior to Hurricane Katrina, the
           Corps awarded one requirements/IDIQ contract with a total
           estimated contract value not to exceed $10 million to the
           contractor with the best technical proposal. After Hurricane
           Katrina struck the Gulf Coast, the Corps awarded contracts to
           each of the remaining four top technically qualified responders.

       •   The Corps included a requirement in the RFP for
           subcontracting plans, which encouraged prime contractors to
           use local and small businesses. Further, in separate
           procurements in October 2005, the Corps awarded two small
           business set-aside contracts to small disadvantaged businesses
           for temporary roofing repairs.

       •   As of August 2006, the Corps had not completed performance
           evaluations on any of the seven contractors. However, the
           contract files contained homeowner complaints and inquiries as
           well as Corps Internal Review and Defense Contract Audit
           Agency (DCAA) reviews.

Overall, the Corps properly acquired temporary roofing repair capacity in
response to Hurricane Katrina for Louisiana and Mississippi. The Corps
openly competed the procurement, properly solicited and reviewed
proposals, and properly evaluated and awarded contracts according to the
criteria specified in the solicitation and the source selection plan.




                             4
Operation Blue Roof Contracts

    The Corps awarded seven contracts for temporary roofing repairs in Louisiana
    and Mississippi. The Corps St. Louis District office awarded the first contract on
    July 8, 2005, and awarded four additional contracts in September 2005,
    immediately after Hurricane Katrina made landfall. Additionally, in
    October 2005, the Corps St. Louis District office awarded a small disadvantaged
    business set-aside contract for work in Louisiana, and the Corps Vicksburg
    District office awarded a small disadvantaged business set-aside contract for work
    in Mississippi.

    Pre-Hurricane Katrina. Between 1999 and 2001, the Corps awarded
    12 temporary roofing ACI contracts for roofing repairs in 21 states, Puerto Rico,
    and the Virgin Islands. Due to low hurricane activity, 11 of the 12 contracts
    expired in 2002 without being used, including the contract for Louisiana and
    Mississippi. In 2004, however, four hurricanes struck Florida, and as a result, the
    Corps awarded contracts for temporary roofing to repair the damage. Following
    the Florida hurricanes, FEMA officially tasked the Corps with the temporary
    roofing repair mission for the United States, and the Corps decided to reinstate the
    temporary roofing repair ACI contracts. The Corps signed an interagency
    agreement with FEMA on April 15, 2005, for the Corps to develop and award
    four to six temporary roofing repair ACI contracts for the Southeastern United
    States for the 2005 hurricane season.

    The Corps Omaha District. After FEMA and the Corps signed the interagency
    agreement in April 2005, the Corps Omaha District office began work on the
    ACI temporary roofing repair procurement. The Corps Omaha District office
    planned to award five requirements/IDIQ contracts for separate geographic areas.
    Each contract would be structured with two phases. Phase I would be the award
    of a requirements contract in the amount of $100,000 in the event of a declared
    mission and Phase II would be the award of an IDIQ contract to include a
    minimum guarantee in the amount of $100,000 with a capacity of up to
    $49.9 million each year. According to Corps personnel, after the start of
    hurricane season in June 2005, responsibility to award temporary roofing repair
    contracts shifted from the Corps Omaha District office to other Corps district
    offices with responsibility for specific coastlines. The Corps St. Louis District
    office assumed responsibility for awarding temporary roofing repairs contracts for
    Louisiana and Mississippi.

    The Corps St. Louis District. With responsibility for Louisiana and Mississippi,
    the Corps St. Louis District office planned to award one requirements/IDIQ
    contract with a total contract capacity of $10 million for the period from July 15
    through December 2005. The Corps posted solicitation number
    W912P9-05-R-0715 on the Corps Web site on June 23, 2005, with responses due
    by July 5, 2005. In order to award a contract on or about July 11, 2005, the Corps
    approved a Justification and Approval for Unusual and Compelling Urgency in


                                         5
 the Government’s Interest. On July 8, 2005, the Corps awarded Shaw
 Constructors, Inc., a contract with a total estimated contract value not to exceed
 $10 million for temporary roofing repairs.

 When Hurricane Katrina struck the Gulf Coast on August 29, 2005, the Corps
 St. Louis District contracting officer, concerned about the extent of damage,
 awarded four additional temporary roofing repair contracts. One of the four
 additional temporary roofing repair contracts was for a contract capacity up to a
 total estimated contract value of $10 million. Three of the four additional
 temporary roofing repair contracts were for an amount not to exceed $10 million
 each. The contracting officer awarded the four contracts from solicitation number
 W912P9-05-R-0715 citing unusual and compelling urgency. The Corps
 subsequently increased the capacity on each of the five contracts from an
 estimated contract value of $10 million to as much as $70 million through
 contract modifications. In October 2005, the Corps Vicksburg District office
 awarded an IDIQ contract with a total estimated contract value for an amount not
 to exceed $12 million to S&M and Associates, Inc., a small disadvantaged
 business, and the Corps St. Louis District office awarded an IDIQ contract with a
 total contract capacity of an amount not to exceed $50 million to Ystueta, Inc.,
 also a small disadvantaged business. The temporary roofing repair contracts were
 in closeout as of August 2006. See Table 1 for a list of the temporary roofing
 repair contracts.



             Table 1: Temporary Roofing Contracts Awarded
                                                                           Award
  Contract                                              Period of           Value
  Number            Contractor        Award Date       Performance      (in millions)
W912P9-05-D-    Shaw Constructors,                    July 8, 2005 –
                                      July 8, 2005                         $10.0
   0515               Inc.                            Dec. 31, 2005
W912P9-05-D-    Carothers/Aduddell,                   Sept. 2, 2005 –
                                      Sept. 2, 2005                         10.0
   0518          A Joint Venture                      Dec. 31, 2005
                      Ceres
W912P9-05-D-      Environmental                       Sept. 4, 2005 –
                                      Sept. 4, 2005                         10.0
   0520           Services, Inc.                      Dec. 31, 2005

W912P9-05-D-      LJC Defense                         Sept. 4, 2005 –
                                      Sept. 4, 2005                         10.0
   0521          Contracting, Inc.                    Dec. 31, 2005

W912P9-05-D-    Simon Roofing and                     Sept. 4, 2005 –
                                      Sept. 4, 2005                         10.0
   0522         Sheet Metal Corp.                     Dec. 31, 2005

W912EE-06-D-        S&M and                           Oct. 4, 2005 –
                                      Oct. 4, 2005                          12.0
   0001           Associates, Inc.                    Dec. 31, 2005
W912P9-06-D-                                          Oct. 18, 2005 –
                   Ystueta, Inc.      Oct. 18, 2005                         50.0
   0505                                               Dec. 31, 2005
   Total                                                                  $112.0



                                         6
Congressional Issues and DoD IG Responses
    Congressmen Thompson and Pascrell requested the Corps IG to review the
    temporary roofing repairs contracts awarded for Hurricane Katrina. Due to
    resource constraints, the Corps requested the DoD IG conduct a review and
    respond when completed. Specifically, Congressmen Bennie G. Thompson and
    Bill Pascrell Jr. raised four issues that are addressed in this report. The issues
    were:

                 •   the Corps’ RFP for the temporary roofing repairs in Louisiana
                     and Mississippi;

                 •   the contractors’ responses to the RFP;

                 •   complaints or negative performance evaluations of prime
                     contractors of Hurricane Katrina Operation Blue Roof; and

                 •   the rationale by which the Department determined that Operation
                     Blue Roof contracts could not be awarded to small, minority, or
                     locally owned firms as prime contractors.

    The four issues raised by Congressmen Thompson and Pascrell Jr. are discussed
    as follows:

    Issue 1. The RFP for the temporary roofing repairs in Louisiana and Mississippi.

    DoD IG Response. The Corps St. Louis District office generally complied with
    Federal and DoD guidance when issuing the RFP for temporary roofing repairs
    for structures damaged by natural disasters in the states of Louisiana and
    Mississippi. The Corps intended to award one requirements/IDIQ contract with a
    total contract capacity of $10 million for Louisiana and Mississippi. The Corps
    stated in the solicitation that the acquisition would be conducted under full and
    open competition and was open to both large and small businesses. The Corps
    amended the solicitation to add a statement that the Government reserved the right
    to mobilize additional contractors if necessary to meet disaster response mission
    requirements. The Corps advertised the RFP through the appropriate
    Government-wide point of entry, www.fedbizopps.gov. Federal Acquisition
    Regulation (FAR) Part 4, “Administrative Matters,” requires one Government-
    wide point of entry for public access to all Federal procurement opportunities for
    more than $25,000. The Corps St. Louis District office, however, advertised the
    RFP with less than the required amount of time for responses.

    RFP Advertisement. The Corps issued solicitation number W912P9-05-R-0715
    on June 23, 2005, and requested contractor proposals by July 5, 2005. This
    allowed only 13 days for responses, which the Corps justified citing Unusual and
    Compelling Urgency in the Government Interest. FAR Part 5.2, “Publicizing and
    Response Time,” requires agencies to allow at least a 30-day response time for
    receipt of proposals. Although the Corps did not allow sufficient time for
    responses, according to the FAR, the shortened time frame did not appear to


                                         7
adversely affect competition, and by July 5, 2005, the Corps had received
22 proposals.

Acquisition Planning. The Corps St. Louis District office did not prepare a
formal acquisition plan for the temporary roofing repairs procurement. According
to the Army Federal Acquisition Regulation Supplement Part 5107, “Acquisition
Planning,” acquisition plans must be approved by the Principal Assistant
Responsible for Contracting when the dollar value of contracts covered by the
plan is estimated to exceed $15 million for any fiscal year or $30 million for all
years including the options for all non-Program Executive Officers acquisitions.
The Corps Omaha District office had prepared, but Corps Headquarters had not
approved, a formal acquisition plan for the estimated $50 million temporary
roofing repair procurement. When the procurement was halted and the Corps
St. Louis District office was tasked to award a temporary roofing repairs contract
with a total contract capacity of $10 million for Louisiana and Mississippi, a
formal acquisition plan was no longer required because the amount of the
acquisition was now valued at less than $15 million. However, following
Hurricane Katrina, the Corps St. Louis District office awarded five contracts, each
with a maximum capacity of $10 million, that were modified several times to
increase capacity. In addition, the Corps awarded the two set-aside contracts.
The procurement grew from an acquisition that would not exceed $10 million to
an acquisition of more than $200 million for the five contracts awarded under the
solicitation.

Issue 2. The contractors’ responses detailing their winning bid submissions from
the Shaw Group, LJC Construction, Simon Roofing, and their subcontractors.

DoD IG Response. The Corps received 22 proposals in response to the
temporary roofing repairs solicitation, and the Source Selection Evaluation Team
(SSET) evaluated the 20 proposals that were responsive. The Corps intended to
award a requirements/IDIQ temporary roofing contract based upon best value to
the Government. The Corps emphasized in both the solicitation and the source
selection evaluation plan the importance of technical competence, placing
emphasis on the contractor’s ability to quickly mobilize in order to minimize the
damage to homes. Price was considered only as a subjective factor after technical
rankings were established. The Government intended to evaluate proposals and
award a contract without discussions with offerors. Therefore, each proposal
should have contained the offeror’s best terms from a cost or price and technical
standpoint.

The Corps St. Louis District office conducted the source selection according to
the methodology stated in the solicitation and the source selection evaluation plan.
We did not review subcontractor proposals because the solicitation did not require
responders to include subcontractor proposals; therefore, documentation for
review purposes was unavailable.




                                     8
Source Selection. The SSET evaluated the proposals based on the proposals’
technical merit and overall best value to the Government using a trade-off
approach. The trade-off approach allowed the SSET to choose the most
technically responsive proposal and then evaluate the price based on
reasonableness. The five main areas that the SSET rated to determine technical
ranking were: mobilization and strategic management plans, experienced
personnel and specialized experience, capacity, past performance, and
subcontracting. The SSET identified the five responders with the most
technically responsive proposals:

             •   Shaw Constructors, Inc.;

             •   Carothers/Aduddell, A Joint Venture;

             •   Ceres Environmental Services, Inc.;

             •   LJC Defense Contracting, Inc.; and

             •   Simon Roofing and Sheet Metal.

After determining the technical rankings, the Corps St. Louis District contracting
officer further determined that the proposed prices for all five contractors were
fair and reasonable based on adequate competition. Even though Shaw’s proposal
was not the lowest priced, the contracting officer determined that Shaw’s proposal
represented the best value to the Government. On July 8, 2005, the Corps
St. Louis District office awarded a contract to Shaw Constructors, Inc.

Subsequent Awards. Subsequent to the July 8, 2005, award to Shaw
Constructors, Inc., the Corps St. Louis District office awarded contracts to each of
the remaining four contractors with technically responsive proposals. According
to solicitation number W912P9-05-R-0715, the Government had the right to make
multiple awards if it was determined to be in the Government’s best interest and
was necessary to meet the disaster response mission requirements. Therefore, on
September 2, 2005, the Corps awarded a contract to Carothers/Aduddell, A Joint
Venture.

The Corps also awarded three additional contracts to Ceres Environmental
Services, Inc.; LJC Defense Contracting, Inc.; and Simon Roofing and Sheet
Metal on September 4, 2005. In addition, the Corps Vicksburg District office
awarded an IDIQ contract with a total estimated contract value for an amount not
to exceed $12 million to S&M and Associates, Inc., a small disadvantaged
business; and the Corps St. Louis District office awarded an IDIQ contract with a
total contract capacity of an amount not to exceed $50 million to Ystueta, Inc.,
also a small disadvantaged business. Table 2 shows the actual contract usage for
the temporary roofing repairs contracts.




                                     9
                   Table 2: Temporary Roofing Contract Usage
                                                              Obligated        Disbursed
   Contract                                    Price Per       Amount           Amount
   Number                Contractor           Square Foot   *(in millions)   **(in millions)
 W912P9-05-D-       Shaw Constructors, Inc.      $1.75          $ 63.8           $ 54.5
    0515
 W912P9-05-D-       Carothers/Aduddell, A        1.65            60.0              54.7
    0518                Joint Venture
 W912P9-05-D-        Ceres Environmental         1.87            60.0              49.4
    0520                Services, Inc.
 W912P9-05-D-            LJC Defense             1.49            50.3              47.2
    0521               Contracting, Inc.
 W912P9-05-D-         Simon Roofing and          1.72            45.3              37.1
    0522              Sheet Metal Corp.
 W912EE-06-D-        S&M and Associates,         1.14            12.2              11.5
    0001                   Inc.
 W912P9-06-D-            Ystueta, Inc.           0.74            4.1                4.0
    0505

     Total                                                     $ 295.7            $ 258.4
 * Source: U.S. Army Corps of Engineers Finance Center as of June 20, 2006.
 ** Source: U.S. Army Corps of Engineers Finance Center as of December 4, 2006.



Issue 3. Complaints or negative performance evaluations of Hurricane Katrina
Blue Roof prime contractors.

DoD IG Response. As of August 2006, the Corps had not completed contractor
performance evaluations for any of the Operation Blue Roof contractors.
However, we reviewed the contractor prior performance evaluations for the
Operation Blue Roof contractors that Corps personnel obtained as part of the pre-
award process. We also reviewed the Corps Internal Review and DCAA field
reports as well as homeowner complaints and inquiries.

Past Performance. The Corps St. Louis District SSET considered contractor
past performance as part of the source selection process. The pre-award contract
files contained past performance information in response to the RFP for Carothers
Construction, Inc./Aduddell Roofing and Sheet Metal, Inc (Carothers/Aduddell, A
Joint Venture); Ceres Environmental Services, Inc.; LJC Defense Contracting,
Inc.; Shaw Constructors, Inc.; and Simon Roofing and Sheet Metal Corps.
However, the pre-award contract files did not contain formal assessments for
Aduddell Roofing and Sheet Metal, Inc. or Shaw Constructors, Inc.

Corps Internal Review and DCAA Field Reports. The Corps Internal Review
personnel conducted field reviews of the Operation Blue Roof program and other
Hurricane Katrina cleanup efforts as part of the Corps’ internal control process.


                                         10
These reports addressed issues such as subcontractor safety practices, verification
of contractor-completed work, and payment of subcontractor employees. DCAA
auditors were also on site and performed similar reviews. The DoD IG plans to
issue a second report that will discuss more specifically the issues raised in those
reports, as well as any corrective actions the Corps took in response.

Homeowner Complaints. The Corps collected Homeowner Complaint and
Inquiry forms from homeowners requesting temporary roofing repairs and from
those who had received a temporary blue roof. We were unable to determine the
total universe of homeowner complaints; however, we judgmentally sampled
Homeowner Complaint and Inquiry forms for more than 1,700 roofs in Louisiana
and Mississippi. The inquiries that we reviewed included homeowner requests for
information regarding the status of the temporary roof installation. Homeowner
complaints cited problems with the quality of the blue roof plastic, the quality of
the workmanship, or reported damage to personal property during the roof repairs.
In addition, some homeowners complained that contractors had not installed a
blue roof despite the homeowners’ requests. Based on the available
documentation, we could not determine whether the Corps took corrective actions
in all cases.

Issue 4. The rationale by which the Department determined that Operation Blue
Roof contracts could not be awarded to small, minority, or locally owned firms as
prime contractors.

DoD IG Response. The Corps did not preclude small, minority, or locally owned
businesses from being awarded prime contracts for temporary roofing repairs.
The initial temporary roofing solicitation was open to both large and small
businesses, and small businesses were encouraged to form joint ventures.
According to the Corps personnel, the rationale for the unrestricted solicitation
without set-asides stemmed from concerns over small businesses’ ability to
mobilize and provide the level of logistical support required at the onset of a
disaster. The Corps received 20 responsive proposals to the initial solicitation, of
which 13 were from small businesses. However, the SSET did not rate the
proposals from small businesses among the top five technically qualified
responders. As a result, the Corps did not initially award a contract to a small
business. However, the Corps awarded two of the five prime contracts to locally
owned firms.

The Corps subsequently awarded two prime contracts for temporary roofing
repairs to small businesses. The Corps Vicksburg District office awarded an
IDIQ contract with a total estimated contract value for an amount not to exceed
$12 million to S&M and Associates, Inc., a small disadvantaged business on
October 4, 2005; and on October 18, 2005, the Corps St. Louis District office
awarded an IDIQ contract with a total contract capacity of an amount not to
exceed $50 million to Ystueta, Inc., a small disadvantaged business.




                                     11
    The Corps also required and encouraged the use of small and local businesses as
    subcontractors. Large business responders were required to submit with their
    proposal a small business subcontracting plan that identified goals for
    subcontracting with small businesses. The solicitation also stated that any
    contract awarded was subject to the Robert T. Stafford Disaster Relief and
    Emergency Assistance Act, which includes a provision for contracting for major
    disasters or emergency assistance activities. Specifically, the Stafford Act directs
    that businesses or individuals who live or work in the area that is affected by a
    disaster be given preference, to the extent practicable. The five initial prime
    contractors extensively subcontracted with small and minority businesses as well
    as local businesses.




    Source: The U.S. Army Corps of Engineers

Post-Hurricane Katrina

    The Corps and FEMA began receiving requests for temporary roofing repairs
    during the first week of September 2005, and contractors began work within days.
    The majority of the repairs were completed by the end of December 2005.
    Following Hurricane Katrina, Blue Roof contractors repaired about 109,000 roofs
    in Louisiana and Mississippi. As of August 2006, Corps personnel were in the
    process of closing out the temporary roofing contracts awarded for Hurricane
    Katrina. Following the Corps St. Louis District office’s 2005 temporary roofing
    repairs contract awards, the Corps Mobile District office was assigned the



                                           12
           responsibility for procuring temporary roofing repair capacity through the
           Contingency Contract Initiative.3

           Mobile District. On November 30, 2005, the Corps Mobile District office issued
           solicitation W91278-06-R-0007 for IDIQ contracts for Contingency Contract
           Initiative Temporary Roof Repairs in 10 states: Maryland, Virginia, North
           Carolina, South Carolina, Georgia, Florida, Alabama, Mississippi, Louisiana, and
           Texas. The Corps planned to make multiple contract awards: three unrestricted
           awards; one Historically Underutilized Business Zone set-aside contract; one
           Service-Disabled Veteran-Owned Small Business; and two contracts per state to
           small disadvantaged businesses, with the business being certified in the state in
           which the contract is awarded. The estimated maximum dollar value of the five
           contracts awards to other than small disadvantaged businesses was $100 million
           per contract. Those five contracts have provisions allowing for an increase in
           total award value, if warranted, due to the magnitude of storm devastation
           experienced.

           Between March 17 and May 24, 2006, the Corps Mobile District office awarded
           12 contracts for temporary roofing. Six contracts were 8(a) set-asides, four
           contracts were unrestricted, one contract was a Service-Disabled Veteran-Owned
           Small Business award, and one contract was a Historically Underutilized Business
           Zone set-aside award.

Other Matters of Interest

           This report responded to specific issues raised in the congressional request that
           involved the Corps’ contract award of temporary roofing contracts in response to
           Hurricane Katrina. During the audit we also identified issues related to contract
           administration and contractor performance. Those issues include determining
           how the Corps followed up on DCAA and the Corps Internal Review
           recommendations, and the adequacy of Government oversight of contractor
           invoicing.

           These issues may have raised the cost to the Government for hurricane recovery
           efforts. The second report will discuss issues related to the administration of
           temporary roofing contracts.




3
    The Contingency Contract Initiative is similar to the ACI.



                                                       13
Appendix A. Scope and Methodology
   We conducted this audit to review the award of the temporary roofing contracts at
   the request of Congressmen Thompson and Pascrell Jr. We met with the Corps’
   Principal Assistant Responsible for Contracting to discuss the overall contract
   award and administration process for temporary roofing procurement.

   We reviewed FAR Part 4, “Administrative Matters”; FAR Subpart 4.11, “Central
   Contractor Registration”; FAR 5.203, “Publicizing and Response Time”; FAR
   Part 15, “Contracting by Negotiation”; FAR Subpart 16.5, “Indefinite-Delivery
   Contracts”; FAR Subpart 19.7, “The Small Business Subcontracting Program”;
   Army Federal Acquisition Regulation Supplement Part 5107, “Acquisition
   Planning”; Engineer Federal Acquisition Regulation Supplement Subpart 7.1,
   “Acquisition Plans”; the “2004 National Response Plan” and “Emergency
   Support Function #6-Mass Care, Housing, and Human Services Annex”; and
   documentation pertaining to Hurricane Katrina recovery efforts.

   We reviewed contract files for the temporary roofing repair contracts for the
   initial five contracts that were awarded by the Corps St. Louis District office
   during the period from July 8, 2005, through September 4, 2005. Specifically, we
   reviewed contract W912P9-05-D-0515 to Shaw Constructors, Inc., dated
   July 8, 2005, with an obligated value of $63.8 million; contract W912P9-05-D-
   0518 to Carothers/Aduddell, A Joint Venture, dated September 2, 2005, with an
   obligated value of $60 million; contract W912P9-05-D-0520 to Ceres
   Environmental Services, Inc., dated September 4, 2005, with an obligated value of
   $60.0 million; contract W912P9-05-D-0521 to LJC Defense Contracting, Inc.,
   dated September 4, 2005, with an obligated value of $50.3 million; and contract
   W912P9-05-D-0522 to Simon Roofing and Sheet Metal Corp., dated
   September 4, 2005, with an obligated value of $45.3 million. We also reviewed
   8(a) set-aside contract W912EE-06-D-0001 to S&M and Associates, Inc., dated
   October 4, 2005, with an obligated value of $12.2 million; and 8(a) set-aside
   contract W912P9-06-D-0505 to Ystueta, Inc., dated October 18, 2005, with an
   obligated value of $4.1 million. The total obligated value of the contracts was
   about $296 million as of June 20, 2006.

   We obtained and reviewed the acquisition plans, RFPs, contractor proposals,
   contractor past performance documentation, source selection and evaluation
   documentation, Right of Entry forms, and invoices dated from
   September 18, 2005, through February 11, 2006. We also reviewed field reports
   prepared by DCAA and Corps Internal Review personnel as well as Homeowner
   Complaint and Inquiry forms in Louisiana and Mississippi. We could not
   determine a total universe of homeowner complaints, but we took a judgmental
   sample of Homeowner Complaint and Inquiry forms for more than 1,700 roofs,
   including 645 roofs in Mississippi and 1,097 roofs in Louisiana. We cannot




                                      14
project the results of our review. In addition, we could not determine whether the
Corps took corrective actions in all cases, based on the available documentation.

We interviewed personnel at seven Corps office locations (Corps Headquarters,
Washington, District of Columbia; Omaha District office, Omaha, Nebraska;
St. Louis District office, St. Louis, Missouri; Vicksburg District office,
Vicksburg, Mississippi; Louisiana Recovery Field Offices, Baton Rouge and New
Orleans, Louisiana; and Mississippi Recovery Field Office, Gulfport, Mississippi)
to determine their involvement and understanding of the Operation Blue Roof
contracts. Contacts included contracting, emergency management, internal
review, legal, and finance personnel.

We performed this audit from November 2005 through November 2006 in
accordance with generally accepted government auditing standards. For this
report, the audit scope was limited to the congressional request.

Use of Computer-Processed Data. We used information from the Corps of
Engineers Financial Management System for informational purposes. We did not
assess the reliability of computer-processed data because the data were not a basis
for a conclusion or finding.

Government Accountability Office High Risk Area. The Government
Accountability Office (GAO) has identified several high-risk areas in DoD. This
report provides coverage of the DoD Contract Management high-risk area.




                                    15
Appendix B. Prior Coverage
      During the past 5 years, GAO has published testimonies and the DoD IG, the
      Army Audit Agency, and the Naval Audit Service have issued reports relating to
      the contracts for Hurricane Katrina recovery efforts. Unrestricted GAO
      testimonies can be accessed over the Internet at http://www.gao.gov. Unrestricted
      DoD IG, Army, and Navy reports can be accessed at http://www.dodig.mil,
      http://www.hqda.army.mil/aaaweb/, and http://www.hq.navy.mil/NavalAudit,
      respectively.

GAO
      GAO Testimony No. GAO-06-714T, “Improving Federal Contracting Practices in
      Disaster Recovery Operations,” May 4, 2006

      GAO Testimony No. GAO-06-622T, “Planning for and Management of Federal
      Disaster Recovery Contracts,” April 10, 2006

DoD IG
      DoD IG Report No. D-2006-116, “Ice Delivery Contracts Between International
      American Products, Worldwide Services and the U.S. Army Corps of Engineers,”
      September 26, 2006

      DoD IG Report No. D-2006-109, “Response to Congressional Requests on the
      Water Delivery Contract Between the Lipsey Mountain Spring Water Company
      and the United States Army Corps of Engineers,” August 29, 2006

Army Audit Agency
      Army Audit Agency Report No. A-2007-0016-FFD, “Debris Removal Contracts,”
      November 9, 2006

      Army Audit Agency Report No. A-2006-0198-FFD, “Contracts for the Hurricane
      Protection System in New Orleans,” August 22, 2006

Naval Audit Service
      Naval Audit Service Report No. N2006-0015, “Chartered Cruise Ships,”
      February 16, 2006




                                         16
Appendix C. Congressional Request




                     17
18
Appendix D. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
Under Secretary of Defense (Comptroller)/Chief Financial Officer
   Deputy Chief Financial Officer
   Deputy Comptroller (Program/Budget)
Director, Program Analysis and Evaluation

Department of the Army
Auditor General, Department of the Army
Commander, United States Army Corps of Engineers

Department of the Navy
Auditor General, Department of the Navy

Department of the Air Force
Auditor General, Department of the Air Force

Non-Defense Federal Organizations and Individuals
Office of Management and Budget
Government Accountability Office




                                          19
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Homeland Security and Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Management, Finance, and Accountability,
  Committee on Government Reform
House Subcommittee on National Security, Emerging Threats, and International
  Relations, Committee on Government Reform
House Committee on Homeland Security
House Subcommittee on Emergency Preparedness, Science, and Technology




                                        20
Team Members
The Department of Defense Office of the Deputy Inspector General for Auditing,
Acquisition and Contract Management prepared this report. Personnel of the
Department of Defense Office of Inspector General who contributed to the report
are listed below.

Richard B. Jolliffe
Bruce A. Burton
Deborah L. Culp
Lisa M. Such
John G. LaBelle
Angela M. Kendera
Jordan P. Holaren
Jessica L. Gurtner
Brian J. Padworski
Meredith H. Johnson
